                                      w'
                                          MEMORANDUM
                                                                        M a r c h 7,   1989

REPLY TO: ,                    01.
                                      I

TO-:              Dep.    Uirecto:-



                                                    1( " ' 9 4 6 / )
VIA:                     OGC

SUBJECT:    M i s c o n d u c t C a s e a t Univ.

       The attached         response f r o m          t        h          e describes the
pro';:?.:-.-. and t h e i r action.       I c o n s i d e r it q u i t e satisfactury. I f
you d o n o t f e e l o t h e r w i s e , I w i l l answer c i o s i n g the case.
